<html>
<title> - HEARING ON (1) DRAFT BILL TO ENHANCE SGLI; (2) P.L. 109-13, TRAUMATIC INJURY PROTECTION PROVISIONS; (3) H.R. 1618, THE WOUNDED WAR- RIOR SERVICEMEMBERS GROUP DISABILITY INSURANCE ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
               HEARING ON (1) DRAFT BILL TO ENHANCE SGLI; 
             (2) P.L. 109-13, TRAUMATIC INJURY PROTECTION 
               PROVISIONS; (3) H.R. 1618, THE WOUNDED WAR-
                  RIOR SERVICEMEMBERS GROUP DISABILITY  
                          INSURANCE ACT OF 2005
=============================================================================

                              HEARING

                             before the

                            COMMITTEE ON
                          VETERANS' AFFAIRS

                       HOUSE OF REPRESENTATIVES

                      SUBCOMMITTEE ON DISABILITY
                   ASSISTANCE AND MEMORIAL AFFAIRS

                      one hundred ninth congress

                             first session

                                -------

                             June 16, 2005

                                -------

         Printed for the use of the Committee on Veterans' Affairs

                           Serial No. 109-11


                    U.S. GOVERNMENT PRINTING OFFICE
22-365                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



             HEARING ON (1) DRAFT BILL TO ENHANCE SGLI; 
            (2) P.L. 109-13, TRAUMATIC INJURY PROTECTION 
             PROVISIONS; (3) H.R. 1618, THE WOUNDED WAR-
                RIOR SERVICEMEMBERS GROUP DISABILITY  
                        ASSISTANCE ACT OF 2005

                       Thursday, June 16, 2005

U.S. House of Representatives,
Subcommittee on Disability Assistance and
 Memorial Affairs,
Committee on Veterans� Affairs,
Washington, D.C.

The Subcommittee met, pursuant to notice, at 1:00 p.m., in Room 334, Cannon House Office Building, Hon. Jeff Miller, Chairman of the Subcommittee, presiding.

Present:  Representatives Miller, Bradley, Brown-Waite, Berkley, Udall, and Evans.

    Mr. Miller. The Subcommittee will be in order.
    Today we are going to take testimony on several legislative proposals to the Servicemembers� Group Life Insurance Program, as well as a new Traumatic Injury Protection Program authorized in H.R. 1268, the War Supplemental, and H.R. 1618.
    As the witnesses are aware, the Supplemental included provisions which made changes to VA�s insurance program for active duty servicemembers.  As the authorizing Committee with jurisdiction over SGLI, this Committee should have had an opportunity to meet and consider those proposals before the House and Senate passed the Supplemental.
    However, it didn�t occur, so we are here today to review the provisions and consider changes where they may be appropriate.  With the exception of the Traumatic Injury Protection program, which I will explain in a minute, the insurance changes made by the Supplemental are set to expire on September 30th of this year.
    The draft bill on the agenda today does a couple of things.
    Number one, it makes permanent the maximum increases in coverage for both Servicemembers� and Veterans� Group Life Insurance from $250,000 to $400,000.  It also requires the military service secretary concerned to notify a servicemember�s spouse or unmarried servicemember�s next-of-kin in writing if the servicemember declines coverage or chooses an amount less than the maximum.
    Further, the spouse would be notified if a beneficiary designation is someone other than that spouse or a child, and finally, makes permanent the increments of SGLI coverage servicemembers may elect from $10,000 to $50,000.
    As many of you are aware, the notification language was included in H.R. 2046, which the Committee marked up May 11th and the House passed on May 23rd of this year.
    The Traumatic Injury Protection program established by the Supplemental provides lump sum financial assistance in the amounts ranging from $25,000 to $100,000 to servicemembers who suffer certain traumatic injuries.
    The servicemember would pay premiums for this additional insurance protection, but could not opt out of the program.
    Representative Rick Renzi introduced somewhat similar legislation in the House, H.R. 1618, and I am pleased he is with us today to discuss his bill and the new program as a whole.
    This Subcommittee�s opportunity comes today to address any outstanding issues regarding these provisions.  Prior to passage of the Supplemental, Ranking Member Berkley and I met and expressed our concerns to representatives of the Department of Veterans Affairs and DoD and look forward to hearing from the witnesses here this afternoon.
    I now recognize our Ranking Member for her opening remarks.
    Ms. Berkley. Thank you, Mr. Chairman.  I appreciate you holding this hearing to review recent changes in the SGLI program.  While I support many of the provisions in the recently-passed Emergency Supplemental, I am concerned that several sections may negatively impact servicemembers and their families.
    The requirement that a married servicemember purchase the maximum amount of life insurance unless the spouse consents makes no exception for spouses who are estranged, separated, or in the process of divorce.  A servicemember who is going through a divorce should not have to ask his or her spouse to approve their life insurance election.  I agree with the testimony of PVA and the other service organizations who believe the spousal consent should be eliminated.
    I am also concerned that under the �notice� provision a servicemember could feel pressured by their spouse to avoid naming the servicemember�s children as beneficiaries, leaving them without financial assistance if he or she dies. A one-size-fits-all approach is not appropriate, sadly, for the complex and countless family responsibilities of today�s servicemembers.
    I support the provision in the draft bill to require notification only if someone other than a spouse or child is named as a beneficiary.
    I also have concerns, Mr. Chairman, with regard to the $150,000 life insurance provided to veterans only while they are serving in a combat zone.  There are risks associated with insurance being provided when servicemembers are only in particular locations around the world.
    For example, servicemembers who are aware that the Department of Defense will provide coverage in combat may decline SGLI coverage and leave their families unprotected if a death occurs in the wrong place.  Payment of premiums by the Department of Defense while servicemembers are in combat would encourage them to participate in the SGLI program, but does not create the risk of inconsistent coverage.
    However, any decision concerning assistance with the cost of premiums should be made by the Armed Services Committee.  I would support action by the Committee to provide such assistance.
    I think we need to remember that SGLI is not a government benefit.  It is insurance paid for by the men and women who serve this nation.  I am uncertain as to the purpose of the traumatic injury policy established by the Emergency Supplemental.  I am hoping that the witnesses will help me better understand the intent of the policy.  Is it intended to compensate the veteran for the traumatic loss of a limb or sensory organ or to compensate the veteran and his family for the expenses related to catastrophic disabilities incurred or aggravated by military service?  If it is for the loss of a limb, shouldn�t this be the responsibility of the Government as stated by DAV and PVA, rather than paid by servicemembers through insurance?  If the intent is to compensate the veteran and his family for additional expenses, why is the benefit limited to only certain traumatic injuries and no other cause, excluding equally or more severely disabled veterans.
    Let me give you an example to help explain.  My understanding is that if two servicemembers are serving in Iraq, in the same military operation, and one goes into a coma due to a shrapnel head injury and the other goes into a coma due to a cardiac arrest brought on by the trauma of the moment, the servicemember with the shrapnel will receive a payment under the law but the servicemember with the cardiac arrest would not.  This disparity of treatment I believe would be avoided under the Renzi bill.
    While it is unclear how the VA will interpret this statute, under the conditions listed in the law, it appears that veterans with similar rehabilitation needs will not be similarly eligible to obtain the proceeds of the policy they are required to purchase.
    According to Mr. Rieckhoff�s testimony, Mr. Acosta lost a hand in combat and needed months of rehabilitation and it appears that he would qualify for the benefit.  However, Mr. Jones, who spent more than a year at Walter Reed for rehab of a spinal cord injury which left him severely disabled but not paralyzed, does not appear to be eligible.
    I support USAA�s recommendation that the benefits should be commensurate with the anticipated rehabilitation time, and not on a finite list of specific conditions.
    As you can see, there are still numerous questions as to how this law will affect servicemembers.  I want to thank all of you for being here, and I look forward to hearing your testimony.  And Mr. Renzi, it is very nice to see you there.
    Mr. Miller. Thank you, Ms. Berkley.  Mr. Evans?
    Mr. Evans. Thank you, Mr. Chairman, and I salute you and Ranking Member Berkley for the hard work you have done coming up with ways to deal with so many different problems that we have in this insurance program.
    It�s not easy to understand.  A lot of people who have worked hard on it and have been experts in it don�t understand it, it�s clarity in terms of where we are going.
    I just want to thank you for taking that opportunity.  Unfortunately many severely-wounded service men and women requiring long-term rehabilitation will not get payments under current law.
    I hope that today�s hearing will assure that the United States is effectively meeting the needs of our armed forces personnel who have suffered severe disabilities during military service.
    I hope that we will all work to improve the benefit for the families who have died.
    I look forward to hearing from our witnesses and for their testimony as well.  Thank you, Mr. Chairman.
    Mr. Miller. Thank you, Mr. Evans.
    Ms. Brown-Waite, do you have anything to add to the discussion before we begin testimony?
    Ms. Brown-Waite. Yes, sir.
    Mr. Miller. Since Mr. Bradley has yielded, you are recognized.
    Ms. Brown-Waite. Thank you.  First of all, I want to commend you for holding this hearing to discuss legislation that is very important to our service men and women.  The House and Senate recently came together to make needed changes to our servicemember and veterans� health insurance coverage in the Emergency Wartime Supplemental passed in May.  However, many of these changes actually will expire in September, 2005, and our Subcommittee must act to make them permanent.
    Among the most significant of these changes are revisions to the Servicemembers� Group Life Insurance and Veterans� Group Life Insurance.  The Chairman�s draft legislation before us today would make permanent the maximum coverage increases in these programs from $250,000 to $400,000.  The increase certainly better supports newly-bereaved families faced with often unexpected expenses.
    As we continue to fight the War on Terror to keep America free, our troops have experienced losses that break our hearts.  Increasing the maximum life insurance coverage available gives our servicemembers and veterans a peace of mind that their loved ones will be provided for in the event of a tragedy.
    I know I lost another servicemember just earlier this week.  He lives in the same county -- or his parents live in the same county as I come from.  Certainly families deserve nothing less and I certainly look forward to hearing from Congressman Renzi and other interested groups who are here today on the legislative proposals before us again, and I want to thank you for holding this hearing.
    Mr. Miller. Thank you, and without further ado, we will recognize our first witness, the Honorable Rick Renzi, who introduced H.R. 1618 on the 13th of April.
    Rick was elected to Congress in 2002 and represents the first district of Arizona.  He grew up in Sierra Vista, Arizona, where his father, a retired Army major general, served at Fort Huachuca.
    Rick, welcome to the Committee.  You may begin.

STATEMENT OF HON. RICHARD RENZI, A REPRESENTATIVE
    IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Renzi. Thank you, Mr. Chairman, Ranking Member Berkley, and members of the Subcommittee.  I appreciate the opportunity to testify before you.  I will go with my prepared comments and then ask any kind of questions or comments we could get into that I think will drill down into the heart of the matter.
    I do appreciate you all having this Committee -- essentially establishing this Committee first of all, and focusing on the disability benefits for our veterans.
    The new program, which was recently introduced as part of the Emergency Wartime Supplemental Act of 2005, will give disabled servicemembers a vital economic boost when they need it most.
    In April of this year I introduced H.R. 1618, the Wounded Warrior Servicemembers Group Disability Insurance Act of 2005.  This legislation, which in part was passed into law, gives our servicemembers the opportunity to purchase disability insurance for about a dollar a month.
    This new Traumatic insurance protection program will provide the servicemember against the economic consequences of both severe disabilities suffered on active duty and the expenses incurred while recuperating for those disabilities. This program greatly assists the servicemembers and their families during a real critical time and they also transition back into full employment.
    Earlier this year I had the opportunity to meet with Sergeant Ryan Kelly from Prescott, Arizona, who told me of the need for the disability insurance program.  In 2003, Sgt. Kelly was returning from a meeting he had had in Iraq where he had met to help rebuild the schools and the hospitals in the country of Iraq, and on the way back his convoy was ambushed by insurgents and an explosive device blew off his right leg below his knee.
    Following this injury, Sergeant Kelly recovered for nearly a year at Walter Reed Army Hospital, where he learned to walk with a prosthetic leg.  Despite his injuries and long recovery, Sergeant Kelly explained to me that he was lucky during his recuperation his extended family had the means to pay for all the unforeseen expenses related to his hospitalization, and yet, however, many of his servicemembers are not so fortunate.
    Hospitalization often requires that the servicemember�s family leave work for an extended period of time in order to be with their loved one.  Many times, particularly within our reserve units men and women are the primary wage earner and their families are moving to Washington, D.C. to spend three and four or five, six months with these folks.  They are incurring hospital expenses, meal expenses, travel expenses -- never mind the loss of the income that they left from the job that they took place.
    I know that many of you on Christmastime went and visited many of the servicemembers over at Walter Reed and saw this for yourself, and during this recuperation period, our boys and girls are suffering with the mounting costs of these debts and these bills, and so it is at this time most that many times charitable organizations will kick in, including the Department of Defense, in trying to do a small amount or a limited amount that they can to help offset some of these costs.
    But my intent of this legislation was to provide an immediate payment of $50,000 for the servicemembers and their families to help with this financial burden with this recovery, with these expenses, and with this full transition back as a full and complete wage-earner in their community, in their society and in their family.
    A quick and substantial insurance payment to an injured servicemember eases their financial burdens and allows them to focus on healing and rehabilitation, both physical as well as mental.
    Some veterans� organizations have stated their opposition to this disability insurance program, because they have said publicly that they believe that this program was enacted to replace either existing or future veterans� benefits programs.  I wish to state in the strongest terms possible that this program should not be seen as a benefit. It is simply an insurance program paid for by the servicemember to provide economic protection, and by no means should this insurance program be viewed as a replacement to VA benefits, but rather as an additional means by which servicemembers may protect themselves and their families from the inherent risks of military service.
    It is important to note that while the servicemembers� group life insurance program has provided thousands of military families economic protection after the death of a loved one, it has not replaced VA survivor benefits.  This new traumatic insurance program should be viewed in the same way -- an insurance program to better protect insurance members and their families from foreseeable yet unexpected tragedies.  I am very pleased Congress acted so quickly to establish this program.  However, I believe that in the future Congress needs to pass legislation to provide expanded benefits and funding to make permanent this kind of protection for the members of our armed forces
    Medical technology has made great advancements, and in particular when our soldiers are wounded on the battlefield, they no longer bleed out.  They are saved by our medic corps.  Yet they regrettably come back to the States facing much severe injuries, and I hope that Congress will act and allow in working with the Department of VA the latitude to establish and insurance program that I am hopeful will begin within the next six months that will cover the most severely injured of our servicemembers.
    Mr. Chairman, I realize I am out of time, so let me just say, and shorten my -- 
    Mr. Miller. We just gave you some more time.  Go ahead.
    Mr. Renzi. Gave me a little more time.  Thank you.
    Let me say I am grateful that you would hold this hearing.  I am mostly grateful for the service of the citizens who volunteer who are patriots, who have given the new battlement, the new weaponry, and particularly the heinous devices that our enemy is using against them, in particular in this war in Iraq, that in the future when we go to war, no longer do we expect division against division, armored division against armored division.
    We do expect this terrorist type of activity to continue, and as we look at the modernization of warfare, the modernization of this evil brought against our men and women, we need to prepare those benefits to fit that type of threat.
    Again, I know that you all support and want to find the best way to make this work.  I apologize for this not coming before the Committee earlier.  My intent was that it would.  Certainly given the fact that you have the new Committee in place, it was something that came over from the Senate and was funded through the wartime supplemental.
    Sir, I thank you for the time today to be with you.

    [The statement of Hon. Rick Renzi appears on p. 54]
 
    Mr. Miller. Rick, thanks very much.
    Very quickly, your bill gives the servicemember an opportunity to opt out of the program.  The program that was established by the Supplemental does not.
    Do you have an opinion as to whether or not it should be mandatory enrollment?
    Mr. Renzi. Yes, sir.  Mr. Chairman, thank you for that point.
    I sold disability insurance prior to coming into Congress.  I never anticipated that the law would obligate or would mandate that an individual had to pay this, that he had to take the money out of his paycheck and pay this benefit.
    Now right now it is very small and it is reasonable to where you could afford the monthly premium, but in the future, 20 years from now, when men and women are continuing to protect this country, should the Federal Government be involved in mandating what comes out of their pay in order to pay their disability?
    And, sir, if I can follow up further, as to Ms. Berkley�s point, should also, as you look at this, should you also allow servicemembers� families to pay this benefit if they want, so that if a person does opt out, should there be a notice that then goes to the family?  And I don�t want to get you into that quagmire, but I believe that you don�t -- we don�t mandate that an individual must take part of his pay, no matter how small it is, and that they must use it for their insurance payment.
    At that point, is it necessarily an insurance benefit as much as it is a mandatory kind of a benefit?
    Mr. Miller. Thank you very much.  I have no further questions.  Ms. Berkley?
    Ms. Berkley. Thank you, Mr. Renzi, for your testimony.
    In your testimony you indicated that Public Law 109-13 gives the Department of Veterans� Affairs wide latitude to cover all severely disabled servicemembers.  However, the law itself prohibits payment for any disability which is not due to traumatic injury.
    Would you favor -- and if you recall my opening statement -- 
    Mr. Renzi. Yes, I do.
    Ms. Berkley. -- two servicemembers serving side by side, one gets their leg blown off, the other one has a heart attack -- same military action.
    Would you favor amending the current law to provide coverage for all severely disabled veterans based upon the estimated time of rehabilitation, as recommended by the USAA?
    Mr. Renzi. Thank you, Ranking Member Berkley.
    I -- in my language, which differs from the Senate version that was passed, I focused on the fact the VA, working with the doctors, would look at true disability coverage. Disability coverage used to mean that you had loss of income and loss of time on the job, and the payout had to do with that amount of time that you missed.
    What came out of the Senate, Ms. Berkley, was really geared more towards Workers� Compensation law that said, well, if you lose this, then you get this.  And that is not where I was going with this.
    Mine was to allow the VA to work with the Wounded Warrior groups and our servicemen and our doctors to find that balance of, �Look, this guy is going to -- or this gal is going to be in the hospital for this amount of time.� These are typically actuarially the type of expenses that you can traditionally timeline, or you could line out, and that this is the kind of benefit they should get.
    When you get into a situation of �This arm is worth this much money,� I ask you, and I know you are with me on this, if it is a dentist who is right-handed and he uses his right arm, isn�t that worth more than a PE coach who loses his right arm?  And so you get into these disparities, and this is one of the problems with Workers� Compensation law.
    So I like the idea of allowing the VA to work with the soldiers and work with the groups to come up with a combination of compensation as it relates to time and expense and debt that is incurred as well as the transitional costs that you see of bringing a person back into a wage earner status.
    Ms. Berkley. So you are not in favor of a laundry list of disabilities that would trigger the law?
    Mr. Renzi. That was the Senate version, ma�am. And I agree with you that I think that needs to be refined. That is why I like what the VA did with it.  When the law came over to VA, they said, they added the word, well, �or� you could look at a time type of a basis.
    Ms. Berkley. Okay.  Thank you very much.
    Mr. Renzi. You�re welcome, Shelley.
    Mr. Miller. Mr. Bradley.
    Mr. Bradley. Thank you very much, Mr. Chairman. Mr. Renzi, thank you.  Welcome back to the Committee.  You have been a long-time advocate for veterans, and certainly those of us other Members of Congress who have seen your work on veterans know it is exemplary, and I thank you for that.
    Mr. Renzi. Thanks, Jeb.
    Mr. Bradley. Just in looking at your testimony and briefly the testimony of paralyzed veterans, and perhaps they can answer this too, is as I understand your bill, Rick, this would be over and above any benefit that exists today, is that correct -- or certainly that is your intention?
    Mr. Renzi. Congressman, I am grateful you drilling on this for me.  I was a little taken back.  Here we are trying to add a voluntary insurance program, not a VA benefit, that would fit the new warfare that we see and the new devices we see used against our men and women.
    In trying to come up with an idea, and having a history of selling insurance in the past, particularly disability insurance, this is a way for them to buy something or their loved ones to buy something -- just like the loved ones bought body armor, just like the loved ones, their families, bought phone cards.  Loved ones could buy a disability policy that would help offset some of the expenses and the debt and the transitional costs back into society.
    It is something I am talking about that is really outside the system.  It is not necessarily a direct cost, direct VA benefit it would actually have jurisdiction over.  I am talking about a cost that is outside.  I am talking about McDonald�s hamburgers for your kids that day while your husband or wife is at Walter Reed.
    So the mechanism to try and fix that, I thought, would be a good disability policy, and that is why I am taken back by the thought that this would actually try and replace or reduce benefits in the future.
    Mr. Bradley. Which I think both you and I would be opposed to.
    Mr. Renzi. Absolutely.
    Mr. Bradley. If it reduced other benefits.
    Mr. Renzi. I would vote against it myself.
    Mr. Bradley. Rick, have you had this bill scored? Obviously there should be no impact to the VA on it, but I guess what I am curious about is the dollar per month or $12 per year, if you have actuarially computed whether that would pay the expected costs of the $50,000 disability benefit?
    Mr. Renzi. Congressman Bradley, I appreciate it. Obviously during wartime the costs of repayment -- the cost that the DoD would incur for the premiums that have to be paid -- would be much higher.  In peacetime, it would be much less.
    We have looked at it in both scenarios, and I would offer to you that under the current scenario that we see in Iraq, we would be looking at an average of about 500 men or women that would qualify, which would equate to about a 25 million dollar premium that DoD would help offset during wartime.
    During peacetime -- and that would be 500 people, roughly -- during peacetime we would estimate, and it kind of goes to the heart of what the Ranking Member was talking about, we would probably see about 200 training injuries that would qualify, and that would probably be cut substantially, more than half, somewhere in the neighborhood of $12 million.
    So, depending on the scenario, you could imagine it would score differently.
    Mr. Bradley. Thank you.  Thank you, Mr. Chairman.
    Mr. Renzi. Thank you, sir.
    Mr. Miller. Mr. Evans.
    Mr. Evans. I know my colleague has spent a lot of hours on this issue, and I appreciate that.
    I would like you to clarify what you mean by �voluntary.�
    Mr. Renzi. Clarify the -- 
    Mr. Evans. The term �voluntary program� -- 
    Mr. Renzi. Balance area?
    Mr. Miller. Voluntary.
    Mr. Renzi. Oh, voluntary, yes.  In my bill, Mr. Evans, I wanted our service men and women to be able to opt out, and therefore the opt out feature makes it voluntary, whereas the existing policies that you see that have opt out features in them are voluntary programs that allow the individuals to get in or get out, and that the Federal Government does not mandate that you have to use this type of pay taken out of your salary to pay for that kind of a benefit.
    Mr. Evans. Well, to take it just one step further, there have been veterans� programs that have been voluntary in the past.  When I got sworn into the Marine Corps, the second day they deal with this issue of volunteering or taking out voluntary, kind of, variety of benefits.
    What I am trying to say is that how is this a meaningful choice when, you know, you have had the day to digest going into the Marine Corps for a few years and it reminds me of the bonds drives that the Marine Corps initiates.  The first sergeant comes out and says, �Well, this is strictly voluntary that� -- 
    Mr. Renzi. But you will buy it.
    Mr. Evans. Right, and so he says, �Who are the communists in this platoon who did not want to buy health insurance?� and stuff like this.  So I am worried about a guy goes in and what do they know, going through the likelihood of that pressure. 
    Mr. Renzi. On the read-in program, whether they are educated enough on it to find out whether it is there or not?
    I agree with you.  There would have to be some sort of an absolute, maybe sign-off.  Maybe you are in, and the only way to get out is that you sign off.  It is up to you all, sir.  I don�t mean to impinge on you, but you have to sign out to opt out.
    I was trying to say in the future, as you all look 20 years from now, if the premiums, and we all know insurance premiums go through the roof, if it turns out to be a $50 a month premium, do we really want to legislate that they have to pay for that?
    By not having the opt out version in it, it begins to head down the road of being more seen as a benefit than an optional type of program, insurance program, and that is really what I am trying to avoid.
    Mr. Evans. Well, thank you.
    Mr. Renzi. Thank you, sir.
    Mr. Miller. Mr. Udall.
    Mr. Udall. I don�t have a question but I like to see my friend, Congressman Renzi, staying involved in veterans� issues and appreciate his testimony here today. Thank you.
    Mr. Renzi. Thank you, Mr. Udall, appreciate your friendship.
    Mr. Miller. Thank you very much, Rick.  Obviously, as has been said already, your commitment to servicemembers and veterans does not go unnoticed and we appreciate you appearing before the Subcommittee today and sharing your views on this particular piece of legislation.
    Mr. Renzi. Thank you, Mr. Chairman.
    Mr. Miller. Thank you very much.
    If I could, would the second panel come forward, and as you do, and we are getting set up, let me kind of lay out where we stand legislatively at this point.
    Sometime between probably 2:00 and 2:30, we are going to be called to a series of votes, probably closer to 2:30 but you never know.  It will be a 15, four 5�s, possibly a motion to recommit, final passage, and two more 5s.  So what we are going to try to do, if we can, is to dispense with all of the nice introductions and remind the Members here in our questioning, if we could keep it succinct if possible, remind the folks testifying today that your entire statement will be entered into the record and we would ask that you do summaries if you will, so that we don�t have to recess and come back. We would like to finish everything, if possible, before we go over to the vote, so what I am going to do is just introduce Tom Lastowka, who is here from the VA Regional Office in Insurance Center in Philadelphia, to begin.

STATEMENTS OF THOMAS LASTOWKA, DIRECTOR, VA RE-
    GIONAL OFFICE AND INSURANCE CENTER; ACCOMPA-
    NIED BY STEVE WURTZ, DEPUTY ASSISTANT DIRECTOR
    FOR INSURANCE; STEVE JONES, PRINCIPAL DEPUTY AS-
    SISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS,
    DEPARTMENT OF DEFENSE; ACCOMPANIED BY COLONEL
    S. VIRGINIA PENROD, DIRECTOR, MILITARY COMPENSA-
    TION, OFFICE OF THE SECRETARY OF DEFENSE (PERSON-
    NEL AND READINESS), DEPARTMENT OF DEFENSE

STATEMENT OF THOMAS LASTOWKA

    Mr. Lastowka. Mr. Chairman, Ms. Berkley, other members of the Committee, before I begin my testimony -- 
    Mr. Miller. You need to turn your microphone on, too, please, sir.
    Mr. Lastowka. Before I begin testimony today, I would like to introduce Mr. Steve Wurtz, who is accompanying me today.  I am the Director of the VA Regional Office and Insurance Center in Philadelphia.  As such, I am the Director of the VA Insurance Program.
    Mr. Chairman, if you will allow, I will summarize my testimony and ask that the complete testimony be placed into the record.
    Mr. Miller. Without objection.
    Mr. Lastowka. First, I would like to comment on H.R. 1618, the Wounded Warrior Servicemembers Group Disability Insurance Act of 2005, which would create a servicemembers group disability insurance program to provide insurance benefits to servicemembers who incur certain severe disabilities.
    While we laud the purpose of this proposal, we cannot support H.R. 1618 because it would largely be duplicative of this new servicemembers group life insurance traumatic injury coverage enacted into law May 1, 2005, as Public Law 109-13.
    I would also like to comment on the draft bill entitled �Servicemembers Group Life Insurance Enhancement Act of 2005.� Section 2 of the draft bill would amend Title 38 to increase the maximum amount of SGLI and VGLI insurance to $400,000, effective October 1st, 2005, with respect to death occurring on or after that date.
    This provision would extend the increase to $400,000 made by Public Law 109-13, which will terminate on September 30, 2005.  VA supports the enactment of Section 2 of this bill because it provides opportunities for servicemembers to increase insurance protection for their family.
    Section 3 of this bill, effective October 1, 2005, would require branches of the service to make a good faith effort to notify spouses or the next-of-kin when the servicemember declines or makes changes to their SGLI coverage.  Spouses must also be notified if the members named a beneficiary other than the spouse or a child.
    Finally, when a servicemember marries, the branch of service must notify the new spouse of the servicemember�s SGLI elections, and if they have designated a beneficiary other than the spouse or a child.  But failure to notify, failure to provide timely notification will not affect the validity of any option elected by the insured.
    Because this bill does not extend the current law that goes into effect September 1, 2005, but instead defines a new program that starts when the current program expires on September 30, 2005, there are a number of potential difficulties and administrative challenges that would unnecessarily burden both the member and the government.
    For example, a member who elects less than the maximum coverage under the current law and whose spouses consent, would once again have to fill out the paperwork required to elect less than the maximum coverage, and then the government would be required to notify the spouse once again.
    The administration would like to work with Congress to ensure that these issues are addressed.
    We note, as well, that under Title 38, SGLI coverage terminates 120 days after release from active duty.  Title 38 also states that any designation of a beneficiary or beneficiaries for Servicemembers� Group Life filed with a uniformed service until changed shall be considered the designation of a beneficiary under VGLI, but not for more than 60 days after the effective date of the insured�s VGLI.
    It is unclear whether the notification provision of Section 3 of the draft bill, which refers to the member of a uniformed service, would apply to any change in the beneficiary designation that the former servicemember would make within that 120 day discharge period, but prior to cessation of SGLI coverage, or that a VGLI insured would make within 60 days period, as referenced in Section 1977(d).
    We also note that if Section 3 were applicable to VGLI beneficiary designations, it would be difficult to implement.  SGLI, Servicemembers Group Life Insurance, does not maintain marital data of the insured.
    Finally, I would like to comment on Section 1032 of Public Law 109-13, which creates a program that provides insurance benefits for servicemembers under certain traumatic injuries.
    Traumatic Injury Program provides automatic insurance for any SGLI who is insured, suffers from a traumatic injury as prescribed by the Secretary of Veterans� Affairs, in collaboration with the Secretary of Defense.
    Under this program payments will be made in accordance of a schedule prescribed by the Secretary of Veterans� Affairs based on the severity of the condition and in an amount not less than $25,000 or more than $100,000.  The maximum payable for all injuries resulting from the same traumatic event is $100,000, and if a servicemember suffers more than one loss as a result of the traumatic injury, payment will be made in accordance with the prescribed schedule.
    Premiums for the disability insurance coverage will be deducted from the basic pay and its benefit is effective December 1.
    We welcome the addition of this valuable benefit to the SGLI benefits currently available.  We believe the law will help reduce the financial burden and mental strain on servicemembers following traumatic and often life-changing injuries.
    This concludes my remarks and I want to thank the Committee for the time and the opportunity to present our views.

    [The statement of Thomas Lastowka appears on p. 56]

    Mr. Miller. Thank you very much.  We will hold our questions until the next presenter presents, and I would ask -- Dr. Steve Jones is appearing on behalf of DoD.

STATEMENT OF STEVE JONES
 
    Mr. Jones. Thank you, Mr. Chairman, and I would like to recognize Colonel Penrod, who is with me here today to help answer any specifics that you might ask later.
    Mr. Chairman, members of the distinguished Subcommittee, thank you for the opportunity to be here today. It is my privilege to discuss disability compensation and survivor benefits and to highlight the Department of Defense initiatives in providing support to the severely injured.
    I have submitted a more detailed written statement for the record, Mr. Chairman.
    First, we applaud Congress for providing the new Traumatic Injury Protection Insurance.  The Department is completely satisfied with the existing statute and would not favor any change that provided for a maximum amount of less than the current $100,000.  We are already working closely with the Department of Veterans� Affairs to implement this new program.
    Second, we are pleased with the increase of the immediate death gratuity payment of $100,000 for survivors of those whose death is in a designated combat operation or combat zone or occurred while training for combat or performing hazardous duty.
    And third, the increase to the maximum amount of Servicemembers Group Life Insurance coverage to $400,000, and provision that the Department will pay or reimburse the premiums for members who are deployed in a designated combat zone for $150,000 of SGLI coverage.
    These increases recognize the direct sacrifice of life of military members in the service of their nation.  We urge your Committee to propose and pass legislation to make the SGLI increase permanent.
    To assist our severely wounded, the Department established the Military Severely Injured Center.  And, Mr. Chairman, if you haven�t had a chance to go out and visit the center, which began operation February 1 of this year, I would encourage you to try to do so, and I have got some brochures here that we would like to pass out for you to see.
    We are collaborating not only with the military services but also with other departments of the Federal Government, nonprofit organizations and corporate America to assist the deserving men and women and their families.  Particularly successful has been the Center�s relationship with the VA in addressing and resolving specific VA benefits and health entitlement issues and concerns.
    The Department of Labor has also been very helpful as well as TSA in transportation issues in getting those who are disabled back and forth for medical care.
    In conclusion, our objective is to ensure that we fully support our servicemembers when we send them in harm�s way, if they become severely injured, and that we properly support the families� needs if a servicemember dies on active duty.  We are very appreciative of the enhanced benefits in traumatic injury insurance provided for our members by Congress.  We urge this Committee to carefully review and retain the underlying intent of Traumatic Injury Protection Insurance and to propose and pass legislation to make the SGLI increase permanent.
    Again, it is my privilege to be here today, and thank you for the opportunity to discuss these critical issues that are so important to our dedicated young men and women in uniform today.  Thank you, Mr. Chairman.

    [The statement of Steve Jones appears on p. 62]

    Mr. Miller. If I could, Mr. Lastowka, just ask in regards to premiums and potential increases, I think right now the numbers, $16.25 a month, for $250,000 coverage -- do you expect increases to get to the $400,000 in coverage on SGLI?
    Mr. Lastowka. Yes, Mr. Chairman.  The monthly premium is  based on both the cost per thousand, and the total amount of the face amount of the insurance.  Immediately we would expect the premiums to go from $16.25 per month to $26.00 per month, and that is simply to increase the premiums collected under the civilian experience.
    In the future there may be some pressure on premiums to be increased due to the fact that at $400,000 per death we will be drawing down our contingency reserves at a quicker pace.
    Mr. Miller. Do you think that will have any type of impact on the number of people who, because of going to $26 a month, on the number of people who would take the full benefit?
    Mr. Lastowka. So far we haven�t had that experience when we haven�t had that experience when we have had increases in SGLI before and we�ve been able to maintain close.  I would hope and expect there would not be any significant change based on that raise in premium.
    Mr. Miller. Dr. Jones, quickly, in the Traumatic Injury Program established in the Supplemental, the SECDEF will give a determination relating to all claims under the program.
    What happens if a servicemember is found by the Secretary to be ineligible for payment?  Can they appeal the decision?  If so, where do they go for an appeal?
    Dr. Jones. Mr. Chairman, I believe that we are still working that issue, at this point in time.  Is that correct?  Here we are talking about the increase -- 
    Mr. Miller. In the Traumatic Injury Program that we did with the Supplemental, and it was said that the Secretary of Defense would in fact adjudicate all the cases. If in fact a servicemember doesn�t like a decision, is there an appeals process that is established?
    Mr. Lastowka. Mr. Chairman, I believe that decision as to whether there was a traumatic injury under traumatic SGLI provisions would rest with OSGLI and the Secretary of VA.  Normally -- 
    Dr. Jones. Mr. Chairman, normally, as you know, we are in favor of an appeals process and if you don�t mind we�ll like to get back for the record for you on specifically how that is going to evolve.

[In response to the request, the witness provided the following:
�An appeals process is an important aspect of any new program.  To that end, the working group is working closely with the Veterans Administration to develop an implementation plan, and we expect the appeals process to be considered as part of that effort.�]

    Mr. Miller. Very good.  Ms. Berkley?
    Ms. Berkley. Thank you, Mr. Chairman, and thank you very much for your testimony.
    I think this is a question for both the VA and the DoD.  Under the laws, a servicewoman who was estranged from her husband and the husband is living with another woman is required to obtain the consent of her husband in order to select and pay for less than the maximum SGLI amount.  That doesn�t make any sense to me.
    Why does the administration insist that the servicewoman in this situation be required to obtain from her estranged husband permission to make financial decisions that are in her own best interest?  I am concerned about the laudable goal but understand unfortunately that it doesn�t fit the tenor of the times and there�s a whole lot of different type of families out there nowadays.
    Mr. Lastowka. Ms. Berkley, under the provisions of 16 -- 
    Ms. Berkley. This is 109-13.
    Mr. Lastowka. Pardon?
    Ms. Berkley. This is 109-13, Public Law.
    Mr. Lastowka. That which has already been passed.
    Ms. Berkley. Yes.
    Mr. Lastowka. As I testified, under the provisions of 1625, I believe it is, there would be required notification rather than consent, and we are endorsing that change in the bill I�m sorry.
    Ms. Berkley. That�s all right.  I get the gist of this.  This woman doesn�t have to get her estranged husband�s consent.  He is going to be notified but there�s no consent. Why do the notification - out of curiosity?
    Dr. Jones. Ms. Berkley, from the Department of Defense, our position, as you know, we want to try and protect the member but we also want to involve the family of the members because that�s so important, so, like you, we try to walk that fine line of what�s the appropriate action here, and that is what you are wrestling with.
    As you know, the Administration does support notification so that people can be informed, hopefully their loved ones can be informed, and of course earlier I think the administration supported the consent.  However, upon reconsideration notification would be appropriate.
    Ms. Berkley. Okay.  The current law has consent for amounts.  Do you support the current law?  I am a little confused about what you are saying, and I understand the fine line, but I am wondering why in fact current law says that you have to consent for the amounts.  Do they have to consent to the amount or just be notified of it?
    Mr. Lastowka. Under the proposed law, Servicemembers� Group Life Insurance Enhancements Act of 2005, that will require notification, not consent, and we are supporting -- 
    Ms. Berkley. The change.
    Mr. Lastowka. -- the Servicemembers� Group Life Insurance Enhancements Act of 2005.  Under the current law, it does require consent, and of course we have no choice but to follow current law.
    Ms. Berkley. Let me ask you a question.  Sometimes people don�t always understand what their rights are and what their strengths are.  Will both the servicemember and the family member who receives this notification understand that there is no consent required?  It should be in bold letters on whatever notification form is used so that both the servicemember, the woman in this instance, knows that notification is going out to her estranged spouse, but that he doesn�t have to consent, and the estranged spouse ought to know that this is a courtesy notification from Uncle Sam and it doesn�t matter what his opinion is, because that could create some problems in a divorce situation.
    Dr. Jones. Ms. Berkley, your point is well taken. We will do everything possible to ensure that we notify the spouse or family member that it is notification only.
    Ms. Berkley. I appreciate that.  I have one more quick question.
    Mr. Miller. You have 20 seconds.
    Ms. Berkley. Twenty seconds, all right.  Your testimony suggests that only limited specified disabilities may qualify for the traumatic insurance payments.
    Does the law give the VA the authority to provide payments to severely disabled servicemembers who have extended periods of rehab, such as that recommended by USAA or only for the specific defined disability?
    Mr. Lastowka. Okay.  Ms. Berkley, again I have not had the opportunity to review the USAA statement, but based on your description we believe that the VA in consult with DoD has the authority to define certain severe injuries based on the length of hospital stay, and that it would still have to come out of the traumatic injury and we have begun consultation with DoD on defining the disabilities that would be covered in addition to those in the law.
    Ms. Berkley. Okay, because you heard my example of the heart attack versus the shrapnel in the head, same result, incapacitation, but both received in the same action and both should be covered. 
    Mr. Lastowka. I have heard the example and I would say if the heart attack was as a result of traumatic injury, it would probably be covered.  I am not sure if it was not the result of the traumatic injury.
    Ms. Berkley. I am not sure I like that answer, but others want to speak.  Thank you very much.
    Mr. Miller. Mr. Bradley.
    Mr. Bradley. Thank you, Mr. Chairman.  My office just had a case earlier this week of a reservist, I believe, who was wounded in Iraq.  He�s about 50 years old, so obviously he had civilian employment, but he is still on active duty.  He may not be a reservist, but it almost doesn�t matter.
    He�s wounded.  He needs to have a handicapped bathroom installed in his home.  There is a grant from the VA that allows him to do this, but as long as he is on active duty, my caseworkers have told me he can�t get the grant.
    What I want to know is under what we just passed in the supplemental, which as I understand it from your testimony today, there is a injury payment to somebody in this kind of circumstance where he is injured, disabled as a result of his service, why he is not evidently qualifying for it.
    I know you can�t talk on this particular case, but answer it in generalities, and then why, if that is not what Mr. Renzi�s bill is specifically designed to do, if what we passed in the supplemental doesn�t cover that kind of example, then why are you opposed to Mr. Renzi�s bill, which as I understand it from my questions to Mr. Renzi, would be over and above any benefit that somebody, whether he is active duty or a veteran, would have.
    Mr. Lastowka. Mr. Bradley, as I understood, you were talking about a person on active duty who received an injury who is not eligible for a grant.
    Mr. Bradley. Yes.
    Mr. Lastowka. I speculate that that is part of this specially-adapted housing program, which I believe therefore is open to veterans but not to active duty servicemembers.
    Under traumatic SGLI legislation, we would expect most of the payments will be going to active duty servicemembers, that compensation above any other benefit, this is an immediate cash payment going to somebody who was severely disabled, severely injured.
    Mr. Bradley. What would be the upper limit on that amount of money that someone injured in that category might be expected to receive?
    Mr. Lastowka. The payments will range between $25,000 and $100,000.  Without know the specifics -- 
    Mr. Bradley. And I know that.  I don�t either know the specifics.  Are there criteria?  There must be criteria.
    Mr. Lastowka. We are working with DoD already in setting up what those criteria are that will define disabilities -- $25,000, $50,000, $100,000.
    Mr. Bradley. And the legislation was retroactive back to right after September 11, 2001?
    Mr. Lastowka. That�s correct.
    Mr. Bradley. So this gentleman should qualify for award.
    Mr. Lastowka. That�s correct, sir.
    Mr. Bradley. Well, you will probably hear from my office then, because I want to make sure that this person -- you know, if Mr. Renzi�s bill was, as I understand it, designed to make sure that a person like this who needs a cash infusion to help him through the transition of not being able to earn the income and his family was accustomed to, and to pay the ancillary expenses, that what we just did in the supplemental is also designed for that, which is why he said it was redundant.
    I want to make sure that somebody in this case, which is a real life case in my district, is getting what he is supposed to be getting.
    Mr. Lastowka. Yes, Mr. Bradley, and of course if I knew the circumstances, I could -- 
    Mr. Bradley. Exactly, and I know that.  That�s why we will be in touch with you.  Thank you.
    Mr. Miller. Mr. Bradley, I would also ask that you contact Committee staff.  I believe you will be pleased to know that the issue that you are talking about was corrected in December of 2003.
    Mr. Bradley. Okay.
    Mr. Miller. And so the information may be a little bit dated, so staff will assist you in that.
    Mr. Bradley. As always, Mr. Chairman, you are right on the ball, and I thank you.
    Mr. Miller. Mr. Evans.
    Mr. Evans. Thank you, Mr. Chairman.  I was concerned about how we identify, or define I should say, a person serving in a combat operation, a zone of combat, who dies as a direct result of an injury or illness incurred for -- serving in combat.  What I want to get to, and I know you are trying real hard for definitions in this bill, I think we need to figure out what that means, because in today�s warfare everybody almost is combat zone, and you can�t easily, I think, suggest that this person is and this person isn�t, so I would just wish that this -- you may not have formulated it, an issue on this, but I�d hope that you would look at this as we go through the legislative process.
    Mr. Miller. That we will.  Definitely.  We will take that into consideration in the process.
    Mr. Evans. Thank you.
    Mr. Miller. And appreciate your remarks.  Mr. Udall?
    Mr. Udall. Thank you, Chairman Miller.  Just a housekeeping
thing.  I would like to put my opening statement in the record on this hearing.
    Mr. Miller. Without objection.

    [The statement of Hon. Tom Udall is on p. 53]
 
    Mr. Udall. Thank you for doing the hearing.
    I understand that the SGLI fund lost about $15 million last year because the Department of Defense did not deduct premiums for spousal coverage for all covered servicemembers.
    Are servicemembers with spousal coverage now having premiums deducted and paid to the VA?
    Colonel Penrod. Sir, if you don�t mind, I will take that.
    Yes, sir.  We met with the services and part of the problem there was the fact that the member must register the military spouse in the Defense Enrollment Eligibility Reporting System (DEERS). and because the military member is a member in their own right, they would not normally do that.
    We met with the services.  We asked the services to provide their plan on how all the members will in fact be paying premiums and that they in fact corrected this issue.  That is due at the end of June, so we would be happy to present that information.

[In response to the request, the witness provided the following:

All Military Services have submitted a plan to identify and contact members who must register their military spouse in DEERS.  Through a variety of public affairs tools including newspaper and magazine articles, e-mail messages, and Service-wide messages, each Service has committed to notifying affected members.  In addition, each Service has received DEERS and personnel data which identifies members who are potentially affected.  This data assists in determining the number of members who have yet to correct their DEERS files.

The Veterans Benefits Administration staff indicates that they have seen progress on the timely payment of monthly SGLI and FSGLI premiums and that they are working with points of contact at the various components and Defense Finance and Accounting Service (DFAS) to improve the reporting process.]

    Mr. Udall. Great.  Thank you.  So it is being deducted and being paid to the VA?
    Colonel Penrod. Yes, sir.
    Mr. Udall. Okay, thank you.  Has the SGLI program received any comments from servicemembers who have concerns about being required to obtain the consent of an estranged spouse in order to make elections of SGLI?
    Mr. Lastowka. Yes.  Under the current law, which would provide for the consent, we have received inquiries and complaints from servicemembers who are estranged from their spouses.  Generally it starts off something like, ``That person left me and the kids and why should I need his permission?�� We have received complaints like that.
    Mr. Udall. How many have you received?
    Mr. Lastowka. We have received in writing I think two that I am aware of.  We received through Prudential�s Office of Servicemembers� Group Life Insurance many other inquiries which you would have to characterize as taking the same vein.  But I could not give you a count, sir.
    Mr. Udall. Okay.  Thank you very much.  Thanks, Mr. Chairman.  Yield back.
    Mr. Miller. Thank you very much.  We appreciate your comments this afternoon.  Sorry we were a little bit rushed, but look forward to working with you as we attempt to perfect these important programs.
    At the same time as everybody moves from the table, we would like to ask the third group, which is our final panel, to come forward.  Give you a little update on time.  Looks like we are in probably a five-minute window of the call for the vote.  As everybody knows, we have a little bit of time to get from here to the Capitol for the vote, but again, everybody at the table is distinguished in their own right, but with your permission the Chair would like to begin with a short introduction, but your full introduction will be entered into the record for all to be able to see on our award-winning website.
    Instead of introducing everybody at one time, what I would like to do is just begin and I will introduce each person as it is your time to speak.
    John Melia is the founder and Executive Director of the Wounded Warrior Project.  I do want to say that this group was formed to give a voice and to assist severely injured servicemembers upon returning from the war on terror.  So without further introduction, Mr. Melia, you are recognized. Thank you.


STATEMENTS OF JOHN MELIA, EXECUTIVE DIRECTOR,
    WOUNDED WARRIOR PROJECT; BRIAN LAWRENCE, ASSIS-
    TANT NATIONAL LEGISLATIVE DIRECTOR, DISABLED
    AMERICAN VETERANS; JOHN BOLLINGER, DEPUTY EXE-
    CUTIVE DIRECTOR, PARALYZED VETERANS OF AMERICA;
    COLONEL (RET.) ROBERT NORTON, DEPUTY DIRECTOR,
    GOVERNMENT RELATIONS MILITARY OFFICERS ASSOCIA-
    TION OF AMERICA; BOB McDONALD, EXECUTIVE DIREC-
    TOR, LIFE/ANNUITY SALES, USAA

STATEMENT OF JOHN MELIA

    Mr. Melia. Brace and Charlene Feldbusch are types of parents we all wish we had.  When they had learned that their son Jeremy had been severely injured on the Haditha Dam in the early stages of the war, they rushed to his side. Traveling from their home in Blairsville, Pennsylvania to Brooke Army Medical Center in San Antonio, where he was being treated.  The news from the medical professionals was not good.  The shrapnel had pierced Sergeant Feldbusch�s head above his right eye.  He suffered loss of that eye, damage to 30 percent of the frontal lobe of his brain, and injury to the optic nerve on the left side, leaving Sergeant Feldbusch totally blind and struggling for his life.
    Questions like who will watch the kids at home, who will pay the mortgage, or will I lose my job never crossed Charlene and Brace�s mind.  Their only thoughts were with their son, and rightfully so.
    Charlene and Brace�s story is not unique, and all too common.  As we speak today, thousands of military families are experiencing the devastating emotional, financial, and physical impact of life with a severe traumatic injury.
    My name is John Melia.  I am the founder and the director of the Wounded Warrior Project.  Chairman Miller, Ranking Member Berkley, thank you so much for the opportunity to present testimony today on behalf of the some 15,000 military service men and women and their families that have been impacted forever by the injuries their loved ones sustained in service to our great nation.
    As previously mentioned, the Wounded Warrior Project was founded in 2003 to give a voice to this new generation of wounded military men and women returning from the current conflicts in Iraq and Afghanistan.  We assist as they courageously face the unique issues and problems associated with life as a disabled veteran, and we aim to fill the vital need for a coordinated, united effort to enable wounded veterans to aid and assist each other and to readjust to civilian life with disability.
    Less than 18 months ago we were approached by Staff Sergeant Ryan Kelly, who was mentioned earlier in Congressman Renzi�s remarks, a soldier who had months earlier lost his right leg below the knee serving on the dangerous streets of Ramadi.  Staff Sergeant Kelly had begun to notice his comrades� and their families� increasing financial strains associated with the trauma.
    Ryan approached the project with several ideas to address this problem.  He would be with us today if he were not riding his bicycle across the country to raise awareness about wounded soldiers with three other men who walked these halls several months ago lobbying for this legislation.
    After reviewing several options, the project decided that a disability insurance program, which would make an immediate payment to families like the Feldbusches, would have the greatest impact.  The project drafted proposed legislation and with the help of three wounded soldiers and their families we began to walk the halls of Congress in search of a sponsor.
    We visited Representative Rich Renzi and we found more than a sponsor.  We found a champion for this cause.  I wish he was here, so we could thank him appropriately.
    The project is extremely grateful to Congressman Renzi and his staff for their efforts.  Congressman Renzi was the first elected official to support disability insurance for servicemembers by introducing H.R. 1618, the Wounded Warrior Servicemembers Group Disability Insurance Act of 2005.
    While this bill was under consideration in the House of Representatives, we were also working on a similar bill in the Senate co-sponsored by Larry Craig of Idaho, Senator Larry Craig of Idaho, and Senator Daniel Akaka of Hawaii.  The project worked with both the Department of Veterans� Affairs and Senate Veterans� Affairs Committee staff on the legislative language proposed by Senator Craig and Senator Akaka.  This language passed as part of Public Law 109-13.
    We are pleased to say that with the passage of this legislation we no longer believe that passage of H.R. 1618 is necessary.  While the provisions of H.R. 1618 would structure the program differently, it would essentially create the same type of insurance coverage as Public Law 109-13.  Passage of this law created traumatic injury protection for all active duty servicemembers who were traumatically wounded.
    The coverage will pay a benefit of up to $100,000, depending on the severity of the injury and the payment will be made within days of the servicemember sustaining the injury and will support the soldier and his family during the long period of hospitalization and recovery.
    Our intent in seeking passage of this legislation was to help the convalescent soldier and, just as importantly, their families during the injured servicemember�s time of initial hospitalization and recovery.  This period -- 
    Mr. Miller. You will hear a couple more in just a minute, but please continue.
    Mr. Melia. This period is often wrought with significant stress for the soldier and their family and lengthy rehabilitation often requires families like the Feldbusches to leave work for an extended period of time in order to be with their loved ones.  The potential loss of income along with a variety of additional related expenses can spell financial disaster for the families.
    Although soldiers continue to draw pay while hospitalized, as we know, the pay is often inadequate to offset the additional expenses incurred by their families.
    The modern battlefield has also exposed an unprecedented number of National Guardsmen and Reservists to front-line combat.  Many of them are working at significant pay reductions from what they were making at civilian jobs prior to active duty.
    Extended periods of hospitalization will prolong the amount of time they will be earning these reduced wages and significantly impact on their long-term solvency.
    The need to help families during this critical time before soldiers become eligible for VA�s benefits and disability compensation programs is undeniable.  The new insurance program will be a bridge from the time of injury until the soldier is eligible for VA benefits.  It will allow families the flexibility to put their lives on hold at a moment�s notice and be with their loved ones.
    From the standpoint of rehabilitation it ensures the newly-injured soldier can concentrate more fully on recovery and transition back into civilian life, rather than on the financial impact of the situation.
    Looks like my time is up.  Can I continue?  May I continue?
    Mr. Miller. If I could, I would like to go on to the other members.
    Mr. Melia. Okay.
    Mr. Miller. Again, your entire statement will be submitted to the record.
    Mr. Melia. Thank you so much.
    Mr. Miller. And I appreciate it.

    [The statement of John Melia appears on p. 70]
 
    Mr. Miller. I would like to introduce Mr. John Bollinger.  He serves as Executive Director of the Paralyzed Veterans of America, and he has done so since 1992.

STATEMENT OF JOHN BOLLINGER

    Mr. Bollinger. Chairman Miller and members of the Subcommittee, I am John Bollinger, with Paralyzed Veterans of America, and I am grateful that you have invited us to testify today.  Thank you.
    I would like to focus my comments primarily on the Traumatic Injury Protection benefits already enacted in P.L. 109-13 and the proposed legislation in H.R. 1618.
    Obviously the provisions contained in the public law are already law and will to a large degree attempt to address the same problems that resulted in the proposed H.R. 1618.  In both cases the financial wellbeing of a soldier with a catastrophic disability has been identified as a problem and is quite worthy of a solution.
    We fully agree that the problem exists, especially in this day and age when our fighting soldiers are somewhat older, often with spouses and families and jobs left behind, and often with mortgages and bills to pay.
    At first blush it would seem that any way we could get a quick influx of financial assistance into the hands of a family dealing first with traumatic, severe disability and, second, the stress of associated financial obligations, we should do it.
    The question, of course, is how best to resolve what is an extremely difficult, devastating situation for the soldier and his or her family.  This is where PVA believes this legislation may be taking us down the wrong road and could set precedents undesirable for dealing with disability.
    We don�t believe, and this is kind of a philosophical point of view on our part, that an individual on active duty should be asked to pay even a small premium to help preserve their financial stability in the event they are catastrophically disabled while serving on active duty.
    We have seen several news releases praising the legislation and stating this benefit is self-funded and will cost taxpayers very little, if anything.  It is really a quick fix and certainly an easy decision in our mind for DoD and VA.
    One release went on to say that as a result of the bill traumatic injury will not include the threat of bankruptcy for families of our soldiers.  If our soldiers are going bankrupt, and clearly many are, because of traumatic injury, then I say shame on all of us.  We have long urged to provide sufficient assistance for families of seriously-disabled servicemen and women to help overcome the crushing burden of dislocation in their lives caused by these disabilities.
    Back on January 2nd I had the opportunity to spend the better part of an afternoon with a father and his son, who is a 20-year-old Marine who was the brand new recipient of a spinal cord injury.  I have got to tell you that in my mind if the average American knew that that individual, that that 20-year-old Marine, was paying one penny to protect himself in the case of financial bankruptcy or financial hardship, I think you would probably have a protest in the halls of Congress.
    The Army has recently proposed recruiting bonuses up to $40,000.  It would seem to me that if DoD is willing to pay upfront a premium to sign up new recruits they should also be willing to pay similar amounts to avert financial ruin among their own whose lives have been drastically changed by catastrphic disability while serving our country.
    We believe there are other solutions Congress may wish to consider to reinforce the Federal Government�s responsibility.  One way would be to create a DoD disability gratuity much like the lump sum death gratuity.  Another way would be to create additional tier of ``emergency pay�� and allowances that are specifically for severely-disabled service men and women,.
    Once our government has fulfilled this obligation, we look forward to working with the Subcommittee to help craft a bill to provide additional protection should a serviceperson desire to have that coverage.  Thank you.

    [The statement of John Bollinger appears on p. 82]

    Mr. Miller. Thank you very much.  What I would like to do is, if there are no objections, ask that Colonel Norton and Mr. Lawrence, if you could both submit your testimony for the record.
    
    [The statement of Colonel (Ret.) Robert Norton appears on p. 92]

    [The statement of Brian Lawrence appears on p. 77]
 
    Mr. Miller. Thank you
    Mr. McDonald, since you traveled here today, if you could cut your comments to two minutes, again only because we are trying to get to the first vote.  We all have questions that we want to enter into the record, and everybody�s statement again will go into the record in its full context and members will be allowed to enter questions into the record, but I would like to get Mr. McDonald�s testimony on the record, too, from USAA.

STATEMENT OF BOB McDONALD

    Mr. McDonald. Thank you, Mr. Chairman.  Not only did I travel far, but I�m going to miss the Spurs� game tonight.
    As you know, I represent USAA and we were founded in 1922 to serve members of the military and their families.  I would like to thank you for allowing us to be a part of today�s hearing on these issues.
    We have supported the recent proposals to expand SGLI, the Traumatic Injury Protection, and the death gratuity. Members of the general public are largely underinsured according to common life insurance industry calculations, and this is particularly true for our military servicemembers.
    Increasing the coverage available via SGLI to $400,000 will provide a meaningful amount of resources to the surviving families of uniform personnel.
    Our suggestions on the appropriate SGLI structure emphasize providing critical education and assistance to personnel on important life insurance coverage decisions. Military members should understand the benefits of supplementing the Government�s group programs with private insurance coverage.  The military should ensure that life insurance issues generally are emphasized in military financial education programs, and there should be some way to arrange for financial planning services for survivors upon receipt of SGLI and death benefits.  There easily could be a combined effort between the Government and the private sector to deliver independent professional advice to help families avoid rash decisions in the wake of loss and to ensure that monies that they receive last for the long term.
    With regard to the role of the military spouse, we agree with Ms. Berkley.  USAA supports requiring only notification and not consent.  Private industry has no precedent set for consent requirements, and most state insurance codes generally dictate that as long as the owner and the insured of the policy are the same person it doesn�t matter who the beneficiary is.
    Switching to the disability programs, USAA feels this is an even more important role -- or topic for the Committee to consider.  Today military personnel face very different hazards than in the past.  With advancements in battlefield medical care, many of our servicemembers return from combat alive but not disabled, and we found that in the private sector -- we have looked into this type of coverage and we cannot provide it at an affordable rate for our members.
    USAA has several observations on the disability proposals.  One important need is to clarify the SGLI coverage that qualifies a member to obtain disability coverage.  We recommend that you don�t force the military member to take the full $400,000 of coverage just in order to have the disability rider attached to it.
    Other recommendations include calculating of benefits based on both anticipated rehab time and severity of injury, ensuring favorable tax status, making sure that benefit is not taxable, get a ruling from the IRS, and designating a private vendor similar to SGLI.  I think Prudential has proven that they can operate that type of a program -- so the private sector is the right way to go.
    Congress needs to be wary of adverse selection in the program.  I think this is an important part.  If there are liberal provisions to allow coverage after an initial election not to participate, servicemembers will simply wait for deployment to enroll and pay premiums, which will substantially increase costs.
    Servicemembers should also receive significant education on the importance of the benefits and it�s vital that they understand the Government program and lack of availability of disability insurance in the private sector.
    I would like to thank you for your participation today, sir.
 
    [The statement of Bob McDonald appears on p. 98]
 
    Mr. Miller. I would like to thank you for your participation and everybody who was here today.  I apologize to the other two presenters.  If you would, please submit your testimony for the record.  We will likewise give our questions for the record.  I look forward to working with the Ranking Member and the members of this Committee on important legislation that we have heard about today, and without objection, statements from Operation Truth and the National Military Family Association will also be entered into the record.

    [The statement from Operation Truth appears on p. 104.  The statement from the National Military Family Association was unavailable at press time.]
 
    Mr. Miller. With nothing further this hearing is adjourned.
 
    [Whereupon, at 2:19 p.m., the Subcommittee was adjourned.]


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

</pre></body></html>
